       May 31, 2002




   Financial Statement

   Major Deficiencies in Financial
   Reporting for Other Defense
   Organizations-General Funds
   (D-2002-096)




             Office of the Inspector General
                          of the
                 Department of Defense

                                Constitution of the
                              United States of America

No Money shall be drawn from the Treasury, but in Consequence of Appropriations
made by Law; and a regular Statement and Account of the Receipts and Expenditures
of all public Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DFAS                  Defense Finance and Accounting Service
FFMIA                 Federal Financial Management Improvement Act
IG                    Inspector General
OMB                   Office of Management and Budget
TI                    Treasury Index
USD(C)                Under Secretary of Defense (Comptroller)
USGSGL                United States Government Standard General Ledger
          Office of the Inspector General of the Department of Defense
Report No. D-2002-096                                                     May 31, 2002
   (Project No. D2002FI-0002)

                 Major Deficiencies in Financial Reporting for
                 Other Defense Organizations-General Funds

                                 Executive Summary

Who Should Read This Report and Why? This report should be read by officials who
are responsible for accounting and reporting on the financial activities of the Other
Defense Organizations-General Funds, and by officials who use the financial reports of
the Other Defense Organizations-General Funds to make management decisions. It
explains major financial reporting deficiencies that diminish the quality and utility of the
Other Defense Organizations-General Funds financial reports.

Background. This financial related audit was performed in response to the Chief
Financial Officers Act of 1990, as amended, which requires DoD and other Government
agencies to produce complete, reliable, timely, and consistent financial information. The
“Other Defense Organizations-General Funds” is one reporting entity included in the
Department of Defense agency-wide financial statements. The entity represents a
consolidation of financial information from various Defense organizations and funds that
use the Treasury Index 97 symbol, also referred to as Department 97. (See Appendix B
for a list of Other Defense Organizations-General Funds.) During FY 2001, the Other
Defense Organizations received $64.3 billion of budget authority. This report addresses,
in summary form, the major deficiencies that continue to undermine the reliability of the
reporting process.

Results. Although DoD and Defense Finance and Accounting Service have taken steps
to improve the financial reporting process of the Other Defense Organizations,
deficiencies related to financial systems, management controls, budgetary reporting, and
trial balance reporting continue to exist. These deficiencies continue to exist because
DoD and Defense Finance and Accounting Service have not fully implemented corrective
actions recommended in prior reports issued by the Inspector General of the Department
of Defense. Many of the deficiencies are recognized by DoD and will not be fully
corrected until DoD implements new systems that are compliant with the Federal
Financial Management Improvement Act of 1996. Therefore we are not making any new
recommendations. Until these deficiencies are corrected, financial reports such as
financial statements and reports on budget execution will not be reliable. For details of
the audit results, see the Finding section of the report

Management Comments. We provided this draft report on April 4, 2002. No written
response was required, and none was received.
Table of Contents

Executive Summary                                    i

Background                                          1

Objectives                                          1

Finding
     Major Deficiencies in Financial Reporting      2

Appendixes
     A. Scope and Methodology
          Scope                                     11
          Methodology                               11
          Management Control Program Review         12
          Prior Coverage                            12
     B. Other Defense Organizations-General Funds   13
     C. Report Distribution                         15
Background
     Other Defense Organizations. The reporting entity, “Other Defense
     Organizations,” represents a consolidation of financial information from
     48 Defense organizations and funds that use the Treasury Index (TI) 97 symbol.
     The DoD agency-wide consolidating financial statements include two columns for
     Other Defense Organizations: Other Defense Organizations-Working Capital
     Funds, which includes the financial activity of working capital funds not
     connected with the Military Departments, and Other Defense
     Organizations-General Funds, which includes the financial activity of all
     remaining organizations and funds using the TI 97 symbol. This audit focused on
     Other Defense Organizations-General Funds, which received $64.3 billion in
     budget authority in FY 2001. (Later references to Other Defense Organizations in
     this report will refer to the Other Defense Organizations-General Funds unless
     otherwise noted.)

     Accounting Support. During FY 2001, Defense Finance and Accounting Service
     (DFAS) provided accounting support for the Other Defense Organizations that use
     TI 97 funds. Accounting offices supporting the Other Defense Organizations
     submit financial information to DFAS Indianapolis (Sustaining Forces) for
     inclusion in the reports on budget execution and the annual financial statements.

     Audit Coverage. Since 1996 the Inspector General of the Department of Defense
     (IG DoD) has conducted a series of audits addressing the financial reporting
     process supporting the Other Defense Organizations-General Funds. The ensuing
     audit reports identified major deficiencies that, until corrected, seriously impair
     the usefulness of financial reports.


Objectives
     The announced audit objective of this financial-related audit was to determine
     whether DFAS Indianapolis (Sustaining Forces) consistently and accurately
     compiled financial data from supporting accounting offices and other sources for
     the FY 2001 financial statements for Other Defense Organizations-General Funds.
     After announcing our audit, we narrowed our scope. Specifically, our audit
     determined the status of previously reported major deficiencies in the financial
     reporting process supporting the Other Defense Organizations. We performed
     follow-up work on previously identified deficiencies. We did not perform a
     financial statement audit and our conclusions are not limited to one particular
     fiscal year. See Appendix A for a discussion of the audit scope and methodology,
     review of management control program, and prior coverage related to the audit
     objectives.




                                          1
            Major Deficiencies in Financial Reporting
            Major deficiencies in the Other Defense Organizations-General Funds
            financial reporting process continue to exist. The reporting process
            includes deficiencies related to four areas:

                •   financial systems,

                •   management controls,

                •   budgetary reporting, and

                •   trial balance reporting.

            DoD and DFAS initiated improvements to the financial reporting process
            supporting the Other Defense Organizations. However, the deficiencies
            persist because DoD has not implemented Department-wide systems that
            comply with the Federal Financial Management Improvement Act of 1996
            and because DFAS has not fully implemented prior IG DoD
            recommendations. As a result, DoD and DFAS cannot provide fully
            reliable and accurate budgetary reports, trial balances, and annual financial
            statements.


Role of Financial Reporting
     The Federal Accounting Standards Advisory Board establishes concepts and
     standards for financial reporting. Statement of Federal Financial Accounting
     Concepts, “Objectives of Federal Financial Reporting,” September 2, 1993, states
     that the financial reporting process for an entity “provides information for
     formulating policy, planning actions, evaluating performance, and other purposes”
     to the end-users of financial information. End-users include citizens, Congress,
     Government executives, and program managers. For financial information to
     benefit the end-user, “Objectives of Federal Financial Reporting,” states that
     financial information should be understandable, reliable, relevant, timely,
     consistent, and comparable. Since 1997, the IG DoD, has reported that the
     financial reporting processes for the Other Defense Organizations have major
     deficiencies that undermine the reliability and consistency of the financial
     products provided to end-users.


Financial Systems
     The Federal Financial Management Improvement Act (FFMIA) of 1996 and
     Office of Management and Budget (OMB) Circular A-127, “Financial
     Management Systems,” July 23, 1993, require each Federal agency to establish
     and maintain a single, integrated financial management system. The financial
     management system is further required to comply with generally accepted

                                           2
accounting principles; use the United States Government Standard General Ledger
(USGSGL); and comply with all applicable OMB and U.S. Treasury
requirements. However, the network of systems supporting the Other Defense
Organizations is not integrated and does not use the USGSGL at the transaction
level.

Integrated Financial Management Systems. The financial reporting process for
the Other Defense Organizations does not consist of integrated financial
management systems as required by FFMIA and OMB Circular A-127. The
following examples illustrate this deficiency.

        DFAS Indianapolis (Sustaining Forces). DFAS Indianapolis (Sustaining
Forces) did not employ an integrated financial management system for
departmental financial reporting. DFAS Indianapolis (Sustaining Forces) used the
Program Budget Accounting system to account for funding, the “TI 97
Application”1 to prepare reports on budget execution; miscellaneous systems to
report on expenditures; and an entirely separate set of systems to compile financial
statements.

         DFAS Columbus. DFAS Columbus accounting personnel use the
Defense Business Management System to perform transaction level accounting
for their Other Defense Organizations clients. However, to prepare proprietary
trial balances, DFAS Columbus accounting personnel developed elaborate
spreadsheets, imported budgetary account balances from the Defense Business
Management System into the spreadsheets, and subsequently used the budgetary
balances to calculate balances for proprietary accounts.

Use of the USGSGL. IG DoD audit reports have shown that the systems used to
collect and report financial data for the Other Defense Organizations do not use
the USGSGL at the transaction level. Also, DFAS acknowledged in its FY 2001
Statement of Assurance,

           . . . each of the existing DoD accounting systems has its
           own general ledger and . . . until a single, standard general
           ledger is developed and implemented in the DoD systems,
           control over accounting and reporting will be impossible.

Significant amounts of Other Defense Organization funds (also referred to as
Department 97 funds) are allocated to Military Departments and accounted for by
the accounting systems used to support the Military Departments. Therefore, those
funds are subject to the diversity of the different general ledgers the Military
accounting systems use. As a result, during the year-end reporting cycle,
accounting offices reporting on Department 97 funds submit year-end trial
balances to DFAS Indianapolis (Sustaining Forces) in multiple non-standard




1
    The “TI 97 Application” is a database accounting personnel at DFAS Indianapolis (Sustaining
    Forces) developed and maintain.

                                              3
    general ledger formats. The Under Secretary of Defense, Comptroller, (USD[C])
    acknowledged the limitation by stating,

                . . . many of the Department’s financial management
                systems do not substantially comply with federal financial
                management systems requirements, applicable GAAP
                [Generally Accepted Accounting Principles], and the U.S.
                Government Standard General Ledger at the transaction
                level. . . .2
    Impact on Reporting Process. General Accounting Office Report No. 02-29,
    “Financial Management, FFMIA Implementation Critical for Federal
    Accountability,” October 1, 2001, states that without integrated financial systems,
    Federal entities are generally unable to routinely produce timely, reliable, and
    useful financial information. The report further states that by not implementing
    the USGSGL, “agencies are challenged to provide consistent financial
    information across their component entities and functions.” In concert with the
    General Accounting Office, we believe that the limitations of the systems used by
    DoD directly contribute to the deficiencies in management controls, budgetary
    reporting, and trial balance reporting. Additionally, until DoD implements
    integrated systems that collect and report data consistently, we believe that the
    benefits of auditing the financial information are minimal.


Management Controls
    The Federal Managers’ Financial Integrity Act and OMB Circular No. A-123,
    “Management Accountability and Control,” June 21, 1995, require Federal
    agencies to integrate appropriate management controls3 into the systems that the
    agency uses. OMB Circular A-123 further requires Federal entities to document
    their management controls and ensure the documentation is readily available for
    review. IG DoD audit reports have identified management control weaknesses
    throughout the financial reporting community. The following examples illustrate
    the lack of adequate controls identified at multiple locations.

    Controls Over Reviewing Financial Information. IG DoD audit reports
    published in 2001 and 2002 reported that the Defense Agency Financial Services
    Accounting Office, DFAS Columbus, DFAS San Antonio, and Washington
    Headquarters Services each did not have adequate controls in place to review,
    identify, and correct anomalies in trial balances prepared for the Other Defense
    Organizations they serve. As a result, those accounting offices prepared trial


    2
        USD(C), Memorandum, “Management Representation Letter Relative to the Department’s Fiscal
        Year (FY) 2001 Department of Defense Agency-wide Financial Statements,” February 26, 2002.
    3
        OMB Circular A-123, Management, Accountability, and Control,” June 21, 1995, defines
        management controls as “the organization, policies, and procedures used by agencies to
        reasonably ensure that (i) programs achieve their intended results; (ii) resources are used
        consistent with agency mission; (iii) programs and resources are protected from waste, fraud, and
        mismanagement; (iv) laws and regulations are followed; and (v) reliable and timely information is
        obtained, maintained, reported, and used for decision making.”

                                                  4
balances that contained abnormal balances. Implementing and enforcing policies
to review financial information can overcome this management control weakness.

Controls Over Year-End Accounting Entries. IG DoD, Report No. 97-155,
“Internal Controls and Compliance With Laws and Regulations for the FY 1996
Financial Statements of the ‘Other Defense Organizations’ Receiving
Department 97 Appropriations,” June 11, 1997, and IG DoD, Report No. 99-014,
“Compilation of the FY 1997 Financial Statements for Other Defense
Organizations,” October 15, 1998, recommended that DFAS document audit
trails supporting year-end accounting entries. However, DFAS continues to
make accounting entries that are not adequately supported with full
reconciliations and adequate audit trails. For example, when preparing the year-
end financial statements for FY 2001, DFAS prepared two accounting entries
totaling $771 million to force Net Cost reported on the Statement of Financing to
match Net Cost reported on the Statement of Net Cost. In another example,
accounting personnel at DFAS Indianapolis (Sustaining Forces) prepared 10
accounting entries totaling $4.6 billion as part of the FY 2001 year-end reporting
cycle. Accounting personnel prepared the entries to force buyers’ and sellers’
records to match so that the effects of intragovernmental transactions could be
eliminated.4 However, DoD has not demonstrated that seller information is
sufficiently reliable to warrant sweeping adjustments to force buyers’ records to
match sellers’ records. Additionally, accounting personnel did not perform a
detailed reconciliation between the two sets of records to affirm the credibility of
one set over the other. Therefore, the entries prepared to unilaterally force one
set of records to match another are deemed unreliable.

The inability to prepare financial reports that report all transactions consistently,
vividly demonstrates the inability of DoD to produce financial reports that meet
the essential characteristic of consistency as identified in “Objectives of Federal
Financial Reporting.” DFAS Indianapolis (Sustaining Forces) will not be able to
overcome the control weakness of unsupported year-end accounting entries until
DoD implements an integrated financial management system to capture and report
data accurately and consistently.

Control Weaknesses Acknowledged by DFAS. The DFAS FY 2001 Annual
Statement of Assurance, acknowledged 42 material management control
weaknesses. Of the 42, at least 11 affected the financial reporting process for the
Other Defense Organizations and could be generally grouped into the following
two categories:

            •   General ledger controls, reconciliations, reliability of financial
                reporting; and

            •   Fund Balance With Treasury.



4
    DoD Regulation 7000.14, volume 6B, chapter 13, “Adjustments, Eliminations, and Other Special
    Intragovernmental Reconciliation Procedures,” directs DFAS to force the buyers’ accounting
    records to match the sellers’ records prior to eliminating transactions between the two parties
    because it is believed that the amounts reported by the seller are more accurate. Therefore the
    corresponding amounts reported by the buyer must be adjusted to match the seller records.

                                              5
    Because DoD accounting, finance, and feeder systems do not fully comply with
    Federal financial management systems requirements, the management control
    weaknesses identified by our audit and DFAS will continue. Additionally, the
    quality of the financial reporting process and financial products—such as reports
    and financial statements—will continue to be at risk.


Budgetary Reporting
    OMB Circular A-34, “Instructions on Budget Execution,” November 3, 2000,
    requires Federal entities to prepare monthly reports on budget execution that show
    the source of budgetary resources, the status of budgetary resources, and the
    relation of obligations to net outlays. OMB, DoD, and Federal entities use the
    reports on budget execution for planning and managing Federal funds. As a
    financial service provider, DFAS uses the budget data, including the reports on
    budget execution, to prepare the annual financial statements. Therefore, the
    reports on budget execution must be accurate and reliable. However, since 1997,
    the IG DoD has reported major deficiencies related to reports on budget
    execution, including abnormal balances and unsupported accounting entries to
    force internal accounting records to match U.S. Treasury records. Those
    deficiencies continue to exist as the following examples illustrate.

    Abnormal Balances5 for Open Appropriation Accounts. For the Other
    Defense Organizations open appropriation accounts, DFAS Indianapolis
    (Sustaining Forces) prepared reports on budget execution at the end of FY 2001
    that contained material abnormal balances that were not adequately explained in
    required footnotes. For example, the September 30, 2001, reports on budget
    execution reported $1 billion of abnormal balances for “Obligated Balances, Net
    as of October 1.”

    Abnormal Balances for Appropriation Accounts Scheduled to Close. For
    fixed appropriation accounts6, section 1552, title 31, United States Code, requires
    that the appropriation account be closed on September 30 of the 5th fiscal year
    after the period of availability for obligation. The reports on budget execution
    prepared for appropriation accounts scheduled to close on September 30, 2001,
    reported material abnormal balances. For example, one appropriation, “Research
    Development Test and Evaluation,” (Basic Symbol 0400) reported a total of
    $487 million of abnormal balances. The existence of abnormal balances at the
    time an appropriation account is scheduled to close is most likely indicative of
    control deficiencies in the procedures for managing and reporting on funds.

    Differences Between Reports on Budget Execution and U. S. Treasury
    Records. IG DoD Report No. 97-155 recommended that DFAS develop and

    5
        The normal balance for an account is always positive. However, if an account goes below $0 it
        becomes a negative balance and therefore is abnormal. An abnormal balance represents more
        decreases to an account than increases and is generally indicative of a reporting anomaly that
        requires explanation.
    6
        DoD Financial Management Regulation, volume 3, chapter 10, Appendix C, defines fixed
        accounts as appropriations or fund accounts with balances available for a definite amount of time.

                                                   6
    implement management controls to monthly reconcile current year expenditure
    data to budget data and to Department of the Treasury data for Fund Balance With
    Treasury, and determine the causes for undistributed disbursements. However,
    the FY 2001 year-end reports on budget execution contained material
    unreconciled differences with U. S. Treasury records for disbursements and
    collections. DFAS Indianapolis (Sustaining Forces) continues to adjust the
    reports on budget execution to match Treasury records. For example, during
    FY 2001 DFAS Indianapolis (Sustaining Forces) prepared accounting entries for
    appropriation-level reports on budget execution that adjusted disbursements by
    $3.9 billion in order to force those reports to match U.S. Treasury records.
    Accounting personnel did not perform a reconciliation to determine to which
    Other Defense Organization the differences should be attributed.

    Impact on Users. Those who read and use the reports on budget execution are
    relying on reports that may not accurately reflect the true status of fiscal
    operations. For example, DFAS Indianapolis (Sustaining Forces) continues to
    prepare material adjustments to force internal records to match the U.S. Treasury
    records which were prepared at the appropriation level rather than the entity and
    sub-entity level for funds appropriated prior to FY 2000. Therefore, readers of
    entity or sub-entity level reports on budget execution would not see the portion of
    the adjustment that applies to their entity.


Trial Balance Reporting
    Financial events are recorded as transactions and those transactions are recorded
    in accounts. A list of accounts with their balances constitutes a trial balance.
    Accounting personnel use trial balances to prepare financial statements.
    Therefore, trial balances must be complete and accurate in order to produce
    complete and accurate financial statements. Major deficiencies in the quality of
    trial balances prepared for the Other Defense Organizations continue to exist. The
    following examples illustrate some of those deficiencies.

    Completeness of Trial Balances. To be useful, trial balances should be
    complete. However, the trial balances used to prepare financial reports for the
    Other Defense Organizations were not always complete. DFAS Indianapolis
    (Sustaining Forces) requires general ledger trial balances to be submitted quarterly
    and at the end of the fiscal year for Defense agencies and other TI-97 reporting
    entities and sub-entities. Accounting offices supporting the Other Defense
    Organizations did not submit trial balances for all of the Other Defense
    Organizations entities and sub-entities. Therefore, DFAS Indianapolis (Sustaining
    Forces) manually prepares partial, year-end trial balances from reports on budget
    execution. For example, during FY 2001, as part of the year-end reporting
    process, accounting personnel prepared trial balances with an absolute value of
    $5.6 billion for 18 sub-entities. The manually created trial balances were not
    complete because reports on budget execution do not contain financial data for the
    entire scope of an entity’s operations, such as accrued annual leave expenses;
    property, plant, and equipment; and related depreciation. Additionally, amounts
    reported for accounts payable and accounts receivable are not reported in separate
    intragovernmental and public categories in the reports on budget execution.

                                         7
Abnormal Balances in the Trial Balances. IG DoD Report No. D-2000-153,
“Compilation of the FY 1999 Financial Statements For Other Defense
Organizations-General Funds,” June 23, 2000, recommended that accounting
offices supporting the Other Defense Organizations correct abnormal balances on
quarterly and annual trial balances submitted to DFAS Indianapolis (Sustaining
Forces). The accounting offices supporting the Other Defense Organizations
continued to submit trial balances to DFAS Indianapolis (Sustaining Forces) that
contained material abnormal balances during FY 2001. For example:

        •    General ledger account 1013, Funds with Treasury, has a normal debit
             balance; however, accounting offices submitted trial balances that
             contained negative, and therefore abnormal, balances of $75 million for
             that account.

        •    General ledger account 2113, Accounts Payable, has a normal credit
             balance. However, accounting offices submitted trial balances that
             contained abnormal balances of $122 million for that account.

Differences Between Trial Balances and Reports on Budget Execution. As in
past years, the FY 2001 year-end Reports on Budget Execution and trial balances
prepared for the Other Defense Organizations reported material differences for
similar categories of financial data reported. For example, the trial balance for
Department 97 appropriations for the North Atlantic Treaty Organizations
Security Investment Program (appropriation 0804.0100), reported $691 million
for Fund Balance with Treasury, but the corresponding information on the Reports
on Budget Execution reported $367 million, a difference of $324 million.
Accounting personnel at DFAS Indianapolis adjusted the trial balances to match
the Reports on Budget Execution.7 DFAS-Indianapolis (Sustaining Forces)
adjusted the general ledger amounts reported in the trial balances to match related
amounts reported in the reports on budget execution because DFAS Indianapolis
(Sustaining Forces) believes that the budgetary data is generally more accurate
than the proprietary data. This accounting entry was unsupported because the
differences between reports on budget execution and trial balances are not
investigated and mathematically reconciled.
Impact on Users. Trial balances are the primary source of data for preparing the
financial statements for the Other Defense Organizations; therefore, the quality of
the trial balances affects the quality of the financial statements for any given year.
Because the process to manually prepare trial balances produces incomplete trial
balances, the resulting financial products are at risk of being incomplete.
Furthermore, until these deficiencies are corrected, the quality of the financial
statements for any given year is at risk because of abnormal balances in trial
balances and unsupported ending balance adjustments.




7
    DoD Financial Management Regulation (FMR), volume 6A, chapter 2, specifically requires
    DFAS to reconcile differences between general ledger amounts and all other related financial
    balances. All un-reconciled differences are to be investigated and any appropriate adjustments
    are to be documented and processed to balance the agencies' and entities' general ledger accounts.

                                               8
Improvement Initiatives
     DoD Initiatives. Although major deficiencies continue to exist, the DoD has
     taken action to correct them. The following examples are provided.

             Financial Management Modernization Program. Secretary of Defense,
     Memorandum, “Financial Management Information Within the Department of
     Defense,” July 19, 2001, established a Department-wide Financial Management
     Modernization Program. The goal of this program is to transform financial and
     non-financial systems and processes so that they effectively work together to
     provide reliable, accurate, and timely financial management information. To
     implement the program, the Secretary of Defense established a Program
     Management Office to develop a DoD-wide enterprise architecture. The
     enterprise architecture will prescribe how the Department’s financial and non-
     financial feeder systems and business processes will interact.

              Independent Audits. USD(C) requires that nine of the Other Defense
     Organizations prepare annual stand-alone financial statements and obtain audits
     from independent certified public accountant firms.8 The results of these audits
     can collectively assist USD(C) in identifying and correcting pervasive deficiencies
     at the individual agency level.

             Joint Review Process. As part of the annual financial statement
     compilation process, the USD(C) established a joint review process through
     which USD(C), DFAS, and IG DoD, meet to review a draft version of the
     financial statements. Participants in the joint review identify areas of concern and
     DFAS, as the financial statement preparer, provides explanations and, as
     necessary, planned corrective action. The joint reviews provide a useful
     opportunity to identify obvious errors and omissions early in the financial
     statement compilation process.

     DFAS. During FY 2001, DFAS reorganized under the Defense Business
     Evolution plan to, among other purposes, allow greater concentration on
     management controls and better focus on resolving weaknesses. Also, DFAS is
     taking steps towards general ledger compliance with its initiative to integrate four
     General Ledger Fund accounting systems. Further, DFAS Indianapolis
     (Sustaining Forces) has implemented multiple corrective actions addressing the
     unique needs associated with the financial reporting processes for Other Defense
     Organizations. Following is a list of some of those initiatives.

            Audited Financial Statements Team. DFAS Indianapolis (Sustaining
     Forces) established a team of accounting personnel dedicated to the Other Defense
     Organizations departmental financial reporting.


     8
         DoD Financial Management Regulation 7000.14-R, volume 6B, chapter 1, “Introduction and
         Summary,” November 2001, requires annual stand-alone statements and audits at Defense
         Logistics Agency, Defense Finance and Accounting Service, Defense Information Systems
         Agency, Defense Contract Audit Agency, Missile Defense Agency, Defense Advanced Research
         Projects Agency, Defense Commissary Agency, Defense Security Service, and Defense Threat
         Reduction Agency.

                                                9
            General Ledger Reconciliation Report. Accounting personnel designed
    and implemented the General Ledger Reconciliation Report that accounting
    offices now use to identify and correct trial balance anomalies such as abnormal
    balances.

            Cash Management Report. Accounting personnel also implemented the
    Cash Management Report for FY 2000 funds (and forward) to identify the
    difference between U. S. Treasury records and internal DoD records at the entity
    and sub-entity level.

           Written Procedures. Accounting personnel took action to document the
    Other Defense Organizations consolidation and compilation process and
    developed standard operating procedures for report preparation.


Conclusion
    DoD and DFAS have taken action to improve the financial reporting process
    supporting the Other Defense Organizations; yet, major deficiencies continue to
    exist related to financial systems, management controls, budgetary reporting, and
    trial balance reporting. The existing deficiencies directly impair the quality and
    reliability of the financial reports that are generated by the financial reporting
    process. Until these major deficiencies are remedied, we do not believe further
    intensive audits of those processes will yield significant benefit. Therefore, we do
    not anticipate conducting additional detailed audits of those processes until
    management can assert that the processes—including systems, controls, and
    data—are compliant with generally accepted accounting principles and can
    generate reports that are accurate and reliable. We make no audit
    recommendations because recommendations have been made in previous reports
    that address most of the deficiencies. Furthermore, the deficiencies are not likely
    to be effectively remedied until a comprehensive set of integrated finance and
    accounting systems and management control initiatives are implemented. For
    those deficiencies for which no previous recommendations were made, DoD has
    already acknowledged the deficiencies and has initiated corrective action.




                                         10
Appendix A. Scope and Methodology

Scope
    Financial Information, Procedures, and Control Reviewed. The audit was
    designed to assess the status of major deficiencies identified in previous IG DoD
    reports. In addition, we assessed the current status of material control deficiencies
    and instances of material noncompliance with laws and regulations that have been
    identified in previous audit reports. We reviewed the reports on budget execution,
    and assessed the status on abnormal balances, differences between reports on
    budget execution and U.S. Treasury records, and the differences between the
    reports on budget execution and trial balances. We also reviewed trial balances,
    and assessed the status of:

        •   manually created trial balances,

        •   abnormal balances on the trial balance,

        •   inconsistencies between trial balances and reports on budget execution,

        •   status of inadequate audit trails, and

        •   use of the USGSGL.

    We reviewed the procedures and controls to accumulate financial data; produce
    appropriation-level reports submitted to the OMB, the USD(C), and DFAS; and to
    prepare the annual financial statements. We also reviewed the FY 2000 DoD
    Financial Management Improvement Plan, the DFAS Arlington and DFAS
    Indianapolis (Sustaining Forces) FY 2001 Annual Statements of Assurance, and
    prior audit reports. We did not review supporting financial data and financial
    reports related to the Other Defense Organizations-Working Capital Funds.

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Financial Management high-risk area.


Methodology
    Computer-Processed Data. We used computer-processed data in this audit;
    however, we did not confirm the reliability of the data because the accounting
    systems used to prepare the financial statements had serious limitations. The lack
    of reliable financial information was described as a material management control
    deficiency in the DFAS Annual Statement of Assurance for FY 2001. The lack of
    reliable information did not adversely affect our conclusions because our audit
    objective was to assess the status of prior deficiencies in the reporting process for
    Other Defense Organizations.


                                         11
    Audit Dates and Standards. We performed this audit from October 2001
    through April 2002 at DFAS Indianapolis (Sustaining Forces) in accordance with
    generally accepted government auditing standards.

    Contacts During the Audit. We visited and contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. Many different
    Defense organizations comprise the Other Defense Organizations reporting entity,
    and collectively, an Other Defense Organizations Management Control Program
    does not exist. Therefore, we reviewed the 2000 DoD Financial Management
    Improvement Plan and the DFAS FY 2001 Annual Statement of Assurance.
    These documents provided the aggregate visibility needed to identify pervasive
    management control weaknesses affecting the group of Other Defense
    Organizations listed in Appendix B.

    Adequacy of Management Controls. Our review of management controls was
    limited to following up on the current status of major deficiencies reported in
    prior IG DoD reports. We determined that management control weaknesses
    persist related to financial systems, budgetary reporting, and trial balance
    reporting. The 2000 DoD Financial Management Improvement Plan
    acknowledged that the current DoD financial systems are not compliant with
    FFMIA. The DFAS FY 2001 Annual Statement of Assurance acknowledged that
    management weaknesses exist related to general ledger controls, reconciliations,
    reliability of financial reporting, and Fund Balance With Treasury. We are not
    making recommendations because recommendations addressing many of these
    deficiencies have already been made and DoD has recognized the deficiencies as
    material weakness.


Prior Coverage
    The General Accounting Office and the IG DoD have multiple reviews related to
    financial statement issues. General Accounting Office reports can be accessed on
    the Internet at http://www.gao.gov. IG DoD reports can be accessed on the
    Internet at http://www.dodig.osd.mil.




                                       12
Appendix B. Other Defense Organizations-
            General Funds
   American Forces Information Service
   Defense Acquisition University
   Defense Advanced Research Projects Agency
   Defense Building Maintenance Fund

   Defense Commissary Agency
   Defense Contract Audit Agency
   Defense Contract Management Agency
   Defense Emergency Response Fund

   Defense Finance and Accounting Service
   Defense Health Program
   Defense Homeowners Assistance Fund
   Defense Information Systems Agency

   Defense Intelligence Agency
   Defense Logistics Agency
   Defense Medical Program Activity
   Defense Prisoner of War/Missing Persons Office

   Defense Security Cooperation Agency
   Defense Security Service
   Defense Threat Reduction Agency
   DoD Component Level Accounts

   DoD Education Activity
   DoD Education Benefits Fund
   DoD Human Resources Activity
   Federal Energy Management Program

   Joint Chiefs of Staff
   Joint Logistics Systems Command
   Missile Defense Agency
   National Defense Stockpile Transaction Fund

   National Imagery and Mapping Agency
   National Security Agency
   National Security Education Trust Fund
   Office of Economic Adjustment



                                         13
                 Office of the Inspector General, DoD
                 Office of the Secretary of Defense (OSD)
                 Other Prior Year Residual “97” Funds
                 Other “97” Funds Provided to the Air Force by OSD

                 Other “97” Funds Provided to the Army by OSD
                 Other “97” Funds Provided to the Navy by OSD
                 Other “97” Funds Provided to Washington Headquarters Services by OSD
                 Pentagon Reservation Maintenance Revolving Fund

                 Ready Reserve Mobilization Income Insurance Fund
                 Technical Research Institute
                 TRICARE Management Activity
                 U.S. Court of Appeals of the Armed Forces

                 U.S. Special Operations Command
                 Uniformed Services University of the Health Sciences*
                 Voluntary Separation Incentive Trust Fund
                 Washington Headquarters Services




* not listed in the DoD Regulation 7000.14-R




                                               14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Acquisition Reform)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
American Forces Information Service
Defense Acquisition University
Defense Advanced Research Projects Agency
Defense Commissary Agency
Defense Contract Audit Agency
Defense Contract Management Agency
Defense Finance and Accounting Service
Defense Information Systems Agency
Defense Intelligence Agency
Defense Logistics Agency
Defense Prisoner of War/Missing Persons Office
Defense Security Cooperation Agency
Defense Security Service
Defense Threat Reduction Agency
DoD Education Activity
DoD Human Resources Activity
Joint Chief of Staffs
Joint Logistics Systems Command
Missile Defense Agency
National Imagery and Mapping Agency
Office of Economic Adjustment
Technical Research Institute

                                          15
Other Defense Organizations (Cont’d)
TRICARE Management Activity
U.S. Court of Appeals of the Armed Forces
U.S. Special Operations Command
Uniformed Services University of the Health Sciences
Washington Headquarters Services

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          16
Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Hoa H. Pham
Jonathan R. Witter
Suellen R. Brittingham
Modupe M. Akinsika
Lashonda M. Thompson
Melanie Ulloa
Michael D. Durda
